SUPREME COURT OF THE UNITED STATES

No. 19-337
patentee nee ne nen en cnn eweene nen neneeme nn enenceeee nen e ee eeen en neeenenenee xX
REGENTS OF THE UNIVERSITY
OF MINNESOTA,
Petitioner,
Vv.

LSI CORPORATION, ET AL.,

Respondents.

 

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,948 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

 

Np. 24-4799601
Qualified in Kings County
Commission Expires August 31, 2021

#291717
